<html>
<title> - CROSSING BORDERS, KEEPING CONNECTED: WOMEN, MIGRATION AND DEVELOPMENT IN THE OSCE REGION</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]






 CROSSING BORDERS, KEEPING CONNECTED: WOMEN, MIGRATION AND DEVELOPMENT 
                           IN THE OSCE REGION

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2008

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via http://www.csce.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

75-411                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           ALCEE HASTINGS, Florida,
  Co-Chairman                          Chairman
RUSSELL FEINGOLD, Wisconsin          LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut          New York
HILARY RODHAM CLINTON, New York      MIKE McINTYRE, North Carolina
JOHN KERRY, Massachusetts            HILDA SOLIS, California
SAM BROWNBACK, Kansas                G.K. BUTTERFIELD, North Carolina
GORDON SMITH, Oregon                 CHRISTOPHER SMITH, New Jersey
SAXBY CHAMBLISS, Georgia             ROBERT ADERHOLT, Alabama
RICHARD BURR, North Carolina         JOSEPH PITTS, Pennsylvania
                                     MIKE PENCE, Indiana
                 
                     EXECUTIVE BRANCH COMMISSIONERS

                   DAVID KRAMER, Department of State
                 MARY BETH LONG, Department of Defense
              DAVID STEEL BOHIGIAN, Department of Commerce
              
              
              
              
              
              
              
 CROSSING BORDERS, KEEPING CONNECTED: WOMEN, MIGRATION AND DEVELOPMENT 
                           IN THE OSCE REGION

                              ----------                              

                             APRIL 24, 2008
                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................    01
Hon. Hilda Solis, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    02

                                MEMBERS

Hon. Gwen Moore, a Member of Congress from the State of Wisconsin    03
Hon. Doris Matsui, a Member of Congress from the State of 
  California.....................................................    03
Hon. Lois Capps, a Member of Congress from the State of 
  California.....................................................    08
Hon. Eddie Bernice Johnson, a Member of Congress from the State 
  of Texas.......................................................    10
Hon. Diane Watson, a Member of Congress from the State of 
  California.....................................................    15

                               WITNESSES

Susan Martin, Director, Georgetown University Institute for the 
  Study of International Migration...............................    04
Manuel Orozco, Remittances and Development Program, Inter-
  American Dialogue..............................................    10

 
 CROSSING BORDERS, KEEPING CONNECTED: WOMEN, MIGRATION AND DEVELOPMENT 
                           IN THE OSCE REGION

                              ----------                              


                             APRIL 24, 2008

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 10:00 a.m. to 11:48 a.m. EST in 
Room B-318, Rayburn House Office Building, Washington, D.C., 
Congressman Alcee L. Hastings, Chairman of the Commission on 
Security and Cooperation in Europe, moderating.
    Commissioners present: Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Hilda Solis, Commissioner, Commission on Security and 
Cooperation in Europe.
    Members present: Hon. Diane Watson, Member of Congress from 
the State of California; Hon. Gwen Moore, a Member of Congress 
from the State of Wisconsin; Hon. Doris Matsui, a Member of 
Congress from the State of California; Lois Capps, a Member of 
Congress from the State of California; Hon. Eddie Bernice 
Johnson, a Member of Congress from the State of Texas; and Hon. 
Diane Watson, a Member of Congress from the State of 
California.
    Witnesses present: Susan Martin, Director, Georgetown 
University Institute for the Study of International Migration; 
and Manuel Orozco, Remittances and Development Program, Inter-
American Dialogue.

   HON. ALCEE HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. We have an excellent panel with two 
distinguished witnesses who are going to share with us their 
knowledge of this issue. And there's much on this issue that we 
need to learn in order to meet the needs of women, their 
families and their home countries.
    Migration is a complex issue that every country deals with. 
And some countries are sending migrants abroad. Some countries 
are transient points and others are the destination country. 
Their status can change over time. And as we've seen to be the 
case in many of the OSCE countries, particularly in Southeast 
Europe, some countries are a combination of all three. I'm 
going to place my full statement in the record without going 
into detail, because I do want us to hear from the witnesses 
and don't want a vote to interrupt us.
    But I'm interested to hear from our witnesses their 
suggestions on how to respond to the new generation of women 
migrants. But before I turn to the panelists, I'd like to 
recognize my fellow commissioner, Representative Solis.
    In addition to serving as a commissioner on the Helsinki 
Commission, Ms. Solis also serves on the OSCE parliamentary 
assembly as special representative on migration. And as such, 
her work is particularly focused on the issue of migration 
within the OSCE region. She brings to that position extensive 
experience on the issue of immigration here in the United 
States. And I'm pleased that she's here today for this hearing.
    And I'd also like to note that with Ms. Solis' active 
participation, the commission is going to focus more of its 
attention on the issue of immigration. And our next event is 
going to be a field hearing in Los Angeles on May 9 to study 
the regional impacts and opportunities for migration. And I 
encourage all who are interested to attend that event.
    Now, I'd like, if she would have any opening statement, Ms. 
Solis to make that statement. And then I'll recognize Ms. 
Moore, our colleague as well.

  HON. HILDA SOLIS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Solis. I want to thank our chairman and also the staff 
of OSCE and our witnesses and also my good colleague and 
friend, Congresswoman Gwen Moore. And I know we'll be visited 
by other members of the Women's Caucus that have also learned 
about this issue and want to participate.
    I won't read my entire statement either. I'm very anxious 
to hear what our witnesses have to say. Migration and, for 
those of us who are domestic here in the states, talk about 
migration and immigration. And I'm very pleased to know that 
we're going to have some information given to us about some of 
the positive aspects of migration.
    So oftentimes we hear on the news, media, reported about 
the heavy drain on our society here. We hear that also in 
Europe. We hear it regarding other third world countries that 
are sending many of their workers or labor force. Sometimes 
it's forced upon them because of poverty, economic and 
political issues. And we want to understand better what that 
means here for us and our experience here in the United States.
    And I do want to say that I'm very interested in hearing of 
the role that women immigrants or migrants that come to this 
country--play; and the fact that, in some cases, remittances, 
whether they're sent from men or women here, outnumber the 
foreign aid that this country sends to many of those countries 
that send immigrants here to this country.
    So I will respectfully submit my testimony also, my 
statement for the record, Mr. Chairman. And thank you again for 
this hearing.
    Mr. Hastings. We're also joined with our colleague, who is 
also very active in international affairs and has traveled with 
us in the Helsinki Commission. And I look forward to her 
traveling with us to Kazakhstan in July with my good friend 
from Wisconsin, Ms. Moore--any statements you may wish to make. 
And welcome Tori. We're glad you are here.

    HON. GWEN MOORE, A MEMBER OF CONGRESS FROM THE STATE OF 
                           WISCONSIN

    Ms. Moore. Yes, Tori is here from Memphis, Tennessee with 
Girls, Inc. And this is a great way to train women for 
leadership roles, to have them come and spend the day with the 
members of Congress. I just want to commend the president of 
the Helsinki Commission, Mr. Hastings, for his outstanding 
stewardship. He really has focused on gender equality and 
gender issues throughout his stewardship, not only as the 
president of the Helsinki Commission, but as a past president 
of OSCE.
    And, of course, my dear colleague, Hilda Solis--her vice 
chairmanship of Human Needs Committee of the OSCE. I want to 
thank them for really calling this briefing, this hearing, 
together today. I'm very interested in OSCE. And I have, of 
course, traveled with them. More particularly, I'm a member of 
the financial services committee. And I have been appointed as 
part of the parliamentary network on the World Bank.
    And so I am very, very interested in hearing from you what 
the impact of international migration remittances have, not 
only on issues such as brain drain, or perhaps strain from 
receiving companies--but what the World Bank research has shown 
about the spurring of development from female migration--very 
interested in hearing any particular information that you might 
have regarding the economics of migration.
    Thanks to you again for inviting me.
    Mr. Hastings. Thank you very much, Congresswoman Moore. My 
good friend and colleague from the Rules Committee has joined 
us. And she has a continuing interest in these matters. And as 
our witnesses can see, you know, you will see some other 
members come and go, a number of them have been involved in 
women's issues.
    But let me ask Doris Matsui if she would offer any comment 
at this time.

   HON. DORIS MATSUI, A MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Matsui. Thank you very much, Chairman Hastings. I enjoy 
serving with him on the Rules Committee. He sits about right 
there in relationship to me. And he's just absolutely 
wonderful, and also Congresswoman Solis and Congresswoman 
Moore. I mean, we travel together, and we have bonded together 
on many of these issues.
    I want to thank you very much for being here today too, 
both of you. Women migrants have become very of interest to me, 
because as we study women around the world, we realize that 
lawmakers really must look at the economic opportunities in 
countries regarding women as well as work trends and family 
development. Women seem to be the key to a lot of this.
    And today's hearing is really an opportunity for us in 
Congress to present the American public with true life stories 
on the issues of women in other countries. And during a time in 
this nation's history that has yielded, sort of, somewhat 
unfortunately visceral reactions, responses to incidences in 
our own country, it's important for us to investigate the 
trends and economic reasons behind women and migration and 
remittances.
    And I know the World Bank and others have other witnesses 
we'll hear from shortly are analyzing how gender plays a role 
in dynamics and determinants of international migration. And 
they're also uncovering the economic circumstances that lead to 
migrant workers.
    In many developing countries, remittance flows make up the 
second largest source of external financing. And that's coming. 
More and more people are beginning to understand this. And it 
raises many important policy questions for all of us.
    And as Congress and other lawmakers continue to delve into 
issues surrounding migrants and gender differences in 
migration, we have the opportunity to develop policy based on 
implications for growth and welfare in both origin and 
destination countries.
    And today's hearing really gives us a good forum to ask the 
kind of questions necessary to understand and deign policies 
for the migration of women. And I look forward to hearing from 
you. And I thank Chairman Hastings for putting together this 
hearing today.
    Mr. Hastings. Thank you very much, Ms. Matsui, Ms. Solis 
and Ms. Moore. I'd like to turn now to our witnesses. And 
joining us today is Dr. Susan Martin, director of the Institute 
for the Study of International Migration and Georgetown 
University, and Dr. Manuel Orozco, with the Remittances and 
Development Program at the Inter-American Dialogue. We've 
distributed their biographies. And if the audience would pick 
them up at the table, it would be appreciated. But in the 
interests of time, I'm not going to read them.
    As a backdrop before beginning with you, Dr. Martin, I just 
with to add to the record what is not a direct relationship, 
but it demonstrates among other things the attitudes that are 
extant here in the Congress. And that would be yesterday's 
inaction of the United States Senate on disparity as it 
pertains to women. I just would like to add my voice as one 
that was sorely disappointed.
    So Dr. Martin, if you would begin.

SUSAN MARTIN, DIRECTOR, GEORGETOWN UNIVERSITY INSTITUTE FOR THE 
                STUDY OF INTERNATIONAL MIGRATION

    Ms. Martin. Thank you. Thank you for this opportunity to 
testify this morning about the situation of women migrants in 
the region covered by the Organization for Security and 
Cooperation in Europe. I have a longer statement that I'd like 
to have added to the record. Thank you.
    Policy makers throughout the world, including in the OSCE 
region, are seeking to make migration a win-win-win situation--
a win for host countries, destination countries; a win for the 
source countries, origin of migrants; and of course a win for 
the migrants themselves. In thinking through strategies to 
increase the benefits of migration in this win-win-win 
situation, and also to deal with some of the negative 
consequences of migration, it's important to keep the gender 
dimension in mind.
    More women are migrating from south to north. And the 
highest proportion of women migrants is in the OSCE region. 
Women migrants now represent 53.4 percent of the total migrant 
population in Europe. And the U.S. figures, or North American 
figures, are similar. Gender perspective is essential to 
understand both the causes and consequences of international 
migration. Gender and equality can be a powerful factor in 
precipitating migration, particularly when women have economic, 
political and social expectations that actual opportunities at 
home can't meet.
    Globalization has increased knowledge of options within and 
outside of home countries. And it's opened a range of new 
opportunities for women who want to leave their homes. However, 
globalization has also failed to live up to its potential, 
leaving women throughout the world in poverty and without 
economic, social or political rights.
    In such cases, migration may be the best or indeed the only 
way out of a desperate situation for many women. The migration 
experience is also highly gendered, particularly in 
relationship to social and family relationships and employment 
experiences. Traditionally, most women migrate through family 
reunification channels. They migrate to join spouses and 
children who have already migrated.
    When such migration is the only route for women to take, it 
often leads to fraud and abuse, where they seek marriage 
opportunities, because it's the way of finding better 
opportunities. And of course, having migrated, they may find it 
very difficult to leave abusive situations where their husband 
is their only link to remaining in legal status.
    Today, though, more women are migrating on their own as 
principal wage earners, not just following to join their 
husbands. Their experience is gendered as well. They tend to 
take jobs in very familiar female occupations, whether it's as 
domestic workers, nurses, teachers. They tend to follow the 
gender, the gender prospects and terms of employment.
    Women who migrate, another aspect of the gendered 
experience, is that they often find themselves at risk of 
gender-based violence and exploitation. Whether labor migrants, 
family migrants, trafficking victims or refugees, they face the 
double problem of being female and being foreign. In addition, 
it's important to keep in mind that gender does not operate in 
isolation from race, ethnicity and religion. Since many migrant 
women differ from the host population in these respects, they 
may face additional discrimination based not only on being 
foreign, being women, but also of a different race, religion or 
ethnicity.
    The migration experience, though, can also be positive. 
It's not all a negative process. Migration can be an empowering 
experience for women who have the opportunity to do things upon 
migration that they couldn't do at home. Even a migration of 
their spouses, of their husbands, can be empowering as they are 
left behind to operate, make decisions, and decide how 
resources will be utilized and gaining empowerment as a result 
of this process.
    In other respects, though, migration can reinforce 
traditional gender roles, because migration is a very complex 
process. Often women are expected to preserve cultural and 
religious norms after migration. And they're supposed to be 
preserving the family values of the societies from which they 
come. Very often immigration rules reinforce this process, 
particularly again through the family reunification process, 
when their status is so much linked to their husband's status 
or their children's status.
    It's important, though, to note that changing gender roles 
in destination countries can also influence migration. I 
posited, amongst other experts, that were going to be seeing a 
huge increase in migration pressures in the years ahead, and 
particularly related to female migration. As our societies age, 
as more of us in my generation enter retirement age require 
health care services, social care to help with work at home, 
the demand for female migrants to fill these jobs are going to 
be increasing. Of course, as more younger women enter the job 
market, the demand for daycare, child care services also 
increases. Women tend to provide these services.
    Migration also has an effect, as some of the opening 
statements said, on the development of the source country. It 
isn't only an impact on the destination country. It happens 
very often through remittances. But it's important to keep in 
mind that the connections between migration and development are 
a two-way connection. Underdevelopment causes migration. 
Migration can influence the development process. It operates in 
both directions.
    In the best case scenario, migration should be voluntary. 
And women, particularly migrants in general, should not have to 
migrate as a result of deepening economic or political 
pressures at home. They should be migrating because it's their 
choice, and of course the choice of the destination country, so 
that they operate through legal channels.
    There's been a lot of attention to the economic factors 
causing migration. There's less attention, though, in dealing 
with stay-at-home development programs to gender roles and 
relationships in gender equality. And I think that has to be 
taken into account.
    Now, a pernicious form of migration for women, who were 
denied rights and denied economic opportunities, is trafficking 
in persons--trafficking where they--through coercion and 
deception are forced into migrating in a way in which they will 
be exploited, either for forced labor or for sexual 
exploitation.
    The international regime for addressing trafficking is 
developing--and I must admit that the OSCE, I think, has one of 
the best institutional structures in place now amongst 
international and regional organizations for addressing 
trafficking. And this is an area, where it needs to be 
applauded in terms of the steps already taken, but certainly 
requires more resources, more attention from the commissioners' 
member states as to what it is doing in this particular area.
    So even though economic development and human social 
development is the best long-term solution to migration, 
migration is likely to continue certainly for the short to 
medium term. And in fact economic development theory says can 
increase migration as people have more resources, more 
knowledge, and more opportunities to move.
    So there we get into the migration as a support for 
development issues. And here women play a particular role. I'll 
let my colleague, Manuel Orozco, talk a bit more about 
remittances, because my testimony relies on some of the 
research he and my other colleagues have done.
    But I think it's also important to look at the broader way 
in which diasporas can support development. Hometown 
associations are very important as a way of bringing resources 
back to their home communities. Too often, though, women 
migrants are shut out of those hometown associations. They 
don't have the means by which they can influence decisions 
about how to spend the money that's being spent back home. And 
since we know that women have a predisposition to spend money 
on health, education, things that benefit human development, 
it's important that they get attention, and that they have an 
opportunity.
    Let me conclude with a few recommendations that I state in 
my testimony as to ways that the United States and other 
destination countries in the OSCE region can perhaps help to 
stimulate the win-win-win situation. Certainly, the U.S. should 
be supporting programs and policies to empower women migrants 
and those left behind by male migrants to participate actively 
in the decisions that affect them and their families, including 
support for voluntary organizations of women migrants, so they 
can participate in this process.
    Improvements are certainly needed in protection of migrant 
women's rights and safety, also in improving their socio-
economic situation to avoid the exploitation that too often 
accompanies migration. Policies to help reduce the cost of 
remittance transfers, so more money actually end up with 
families. The important other factor, truth in transfer 
policies, so people know what they're actually sending, what 
will be received.
    Programs are needed to stimulate diaspora contributions to 
economic, social, education, health, political, development and 
home countries. So is the identification of ways to better 
promote stay-at-home developments, so people can migrate by 
choice not necessity--particularly looking at helping women to 
gain economic opportunities, education, health care, other 
services, legal rights, protection from violence at home. And 
then improvements in data collection. Unfortunately, we don't 
have good sex and age segregated data on emigration or 
immigration. That makes it hard to target policies and programs 
at women migrants.
    There are numerous international and regional fora in which 
these issues are being discussed. OSCE is one of them. The U.S. 
participates very actively in a number of regional fora. And I 
would urge that that process continue. There is growing, 
though, international multilateral discussion of migration 
issues, particularly through the Global Forum on Migration and 
Development, a state-owned process trying to get governments to 
talk about how they can cooperate, source, transit, destination 
countries.
    U.S. so far has been missing an action from that process 
that we've not taken a very active stance as a government, even 
though this is a governmental process that I think holds a lot 
of promise for having a real dialogue with the source countries 
about how to best manage migration. And I would hope that the 
U.S. could start to become much more actively engaged in all of 
the international discussions on this important issue. Thank 
you.
    Mr. Hastings. Dr. Martin, thank you. And Dr. Orozco, I hope 
you will all permit, I know we've been joined by two of our 
colleagues. And I do know that Ms. Capps has to leave. But I 
would like to hear from her. And I don't know, Ms. Johnson may 
well have to as well. But let me if she has anything that she 
would wish to say at this time. My very good friend and 
colleague from California, the chair of the bipartisan Women's 
Caucus, Lois Capps.

    HON. LOIS CAPPS, A MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Capps. Thank you, Chairman Hastings, for holding this 
very important hearing. And I want to thank Congresswoman Solis 
for your great work. I've been hearing about some meetings that 
you've been having in your particular representation on 
migration within the commission. This is a very timely hearing. 
And I much appreciated Dr. Martin's remarks. And I know that 
Dr. Orozco will be a very instrumental in educating us as to 
the good side and the hard side to what this topic addresses 
for us.
    I think you can tell, Chairman, that holding this hearing 
evoked a strong response from the Women's Caucus in terms of 
our membership. We who are here representing, not only women in 
our congressional districts, but as women are very sensitive to 
how migration affects women and, of course, their families.
    It goes without saying that, when we talk about women, 
there's a sort of stereotype. You talked about women who are 
wage-earners. But it's often the man of the household is sent 
first, at least, and finds the way and sends back those 
remittances. And it's left to the woman to hold the family 
together. And then, there's oftentimes--I'm now talking about 
my personal experience. And all of us have our anecdotal 
experiences with this topic in our congressional districts.
    And over the many years, I was a public health nurse in my 
community. I became very closely involved in the migration 
patterns of families who--and we've even structured in Southern 
California our school year around certain migration patterns; 
because oftentimes it's a back and forth for economic reasons 
and familial reasons.
    I think a signal issue in terms of my experiences, 
particularly to the south of our border, for those families 
that I've become acquainted with is the disparate family, the 
separated family. And that the particular challenges that holds 
for a woman who, in the interest of unification, oftentimes 
embarks on risky behaviors and decision making, because she has 
that overarching drive that can't be quelled to have the family 
united.
    And that impacts our school calendar. It impact employment. 
It impacts transportation and legality in terms of crossing. 
There are so many issues of safety and of family unity, which 
is so core to what we define as being American. I mean, these 
are very fraught issues.
    And yet, it's so ripe with opportunity for us to address 
this in a good way. Our immigration policies, as I think 
everyone would know, are no up-to-date. That's the nicest way I 
can say that. And it comes down to bear so dramatically on the 
life of the women that we all know from our experiences at 
home. And seen as a totality, it has tremendous impact on this 
country.
    It's become politicized in quite negative ways that are 
with very strong consequences to, again, some of our 
fundamental ways of treating one another in terms of justice 
and fairness and compassion as a nation. So we are being put to 
the test.
    And yet it comes down to the state I represent--and there 
are a couple of us here now. Ms. Matsui was here earlier--is 
one of the younger states of the nation. But we know very 
dramatically the strong role migration has played on the 
strength and the development and the advancement of our state. 
There's just evidence everywhere, with new work forces as each 
generation comes along, of extremely hardworking people who 
have sacrificed and are sacrificing a great deal to be in this 
country.
    Almost all of us have immigrants in our family histories. 
And you know that those first generation of people to come to 
this country are the reason we have succeeded as a nation in so 
many ways, because of hard work, determination, and that 
American dream that no one knows more clearly than someone who 
is yearning to come, or someone who has come, and now seeks 
very intently on fulfilling their dreams in this country.
    And I want to say how much I appreciate the positive role 
that migrant families have played. I represent an agricultural 
district. And it's certainly in that arena. I have a lot of 
tourism in my district. I know that that that's very dependent 
on certain group of people who will do those kinds of long and 
very physically demanding jobs that go undone without that.
    There's a need on the part of this country to fix and 
policies and to have the right kind of people here. But respect 
for the institutions that we have--that's another final point 
that I wanted to make is that, in some ways, a migrant woman 
carries within her soul and heart, for the sake of her family 
and for the dreams that she has, a tremendous desire to honor 
and respect the local teachers that her kids go to school to 
study under, the enormous respect with which the privileges of 
being a part of our society hold, and how that is passed on.
    And I just hope we honor that. And I know we are in this 
discussion. But we'll find ways to sustain that attribute, that 
positive contribution that women make in this area. I think the 
migrant woman is the one who carries the desires and also 
brings with her from the country of origin the culture, the 
values, the traditions. This is the role that the woman plays 
in transmitting that to the next generation within the wider 
culture, so that we have the enormous richness of culture that 
come also with these women.
    So I'm going to stop now. I've been joined by colleagues. 
It's wonderful to see. I appreciate very much again, Mr. 
Chairman, that you're holding this hearing.
    Mr. Hastings. Thank you very much, Ms. Capps. I was awfully 
glad that Commissioner McIntyre joined us. I was beginning to 
feel intimidated--and also Commissioner Diane Watson from 
California. I had said earlier that I would hear from 
Congresswoman Johnson, my classmate, good friend and colleague 
from Texas. And Mike, if you and Ms. Watson don't mind, then I 
would like to hear from Dr. Orozco. And then we will come to 
you. All right. Ms. Johnson.

HON. EDDIE BERNICE JOHNSON, A MEMBER OF CONGRESS FROM THE STATE 
                            OF TEXAS

    Ms. Johnson. Thank you very much, Congressman Hastings. And 
let me express my appreciation for you and Ms. Solis for having 
this hearing and with your continuing leadership. Women really 
coming to almost any country--because the U.N. has had reports 
as well are really very vulnerable to mistreatment. Just 
recently, there was a Latino woman held for four days in jail 
in Arkansas without food or water or anything. They just forgot 
they locked her up.
    And I think that we need to really get more attention. The 
International Labor Organization estimates that there are 
between 80 million and 100 million migrant workers 
internationally. And about half of that population will be 
women. And it doesn't take us much to see many of them. They 
take care of children. They clean houses and any other type of 
job they can get to work to try to keep families together. And 
generally speaking, I think that anyone will have to 
acknowledge that they have been a positive force in this 
country. And it also falls to the independence, self-confidence 
and economic status for many women coming under more fair 
circumstances.
    They cannot communicate in their own language for the host 
country, and are documented, and lack adequate contracts. And 
that's what makes them so vulnerable. I have read about women 
being practically enslaved in homes as housekeepers and 
babysitters, which we have to become more sensitive to, to make 
sure that we live up to our own constitution of fairness. And 
many contend that payments and investments contribute to 
migrant women's poverty reduction. But they're almost held 
hostage in some situations. And you wonder if they're getting 
paid at all.
    So I thank you for coming as witnesses. And I look forward 
to hearing the testimony of Mr. Orozco. We need to know from 
you--and Ms. Solis and Mr. Hastings and all might know this 
already--but we need to know what actions by the Congress will 
help alleviate these challenges for women migrants; because I 
think women are much more vulnerable to mistreatment when they 
come.
    Thank you very much, Mr. Hastings.
    Mr. Hastings. Thank you very much, Ms. Johnson. And Dr. 
Orozco, thank you for your patience. I think you can tell, by 
the interest shown from the membership that this is an issue of 
substantial import to those of us here in Congress. Dr. Orozco.

   MANUEL OROZCO, REMITTANCES AND DEVELOPMENT PROGRAM, INTER-
                       AMERICAN DIALOGUE

    Mr. Orozco. Thank you very much for inviting me to testify 
before you. And actually, I'm very motivated to see the 
interest and the concern over this issue and having a balanced 
approach also to this. But only look at women as the negative 
effects of migration, but look at the whole balance, the whole 
picture; and have an open perspective about the broader issues, 
especially relating to gender.
    There is no question that the member countries of the OSCE 
have reliance in the country of migration, especially over the 
past 20 years. And this reliance is related to a number of 
factors. But particularly it has to do with some of the slow 
transition of economic growth of many countries who are now 
members of the Commonwealth of Independent States; but also is 
related to the increase in economic growth in the Russian 
economy associated also with the significantly sharp 
demographic changes that has happened in Russia simultaneously. 
That has changed different patterns of international migration.
    At the same time, there is another process that is 
happening, which is that there is a global feminization of low-
cost labor that has had significant implications in the demand 
for foreign labor from different countries in the OSCE region.
    I will focus my testimony on issues regarding women 
migration and remittances, particularly in Central Asia, the 
South Caucasus and Moldova, which are places where I have 
conducted extensive field work on these issues of migration and 
remittances. And I will offer some recommendations on 
developing policy focusing on how to leverage remittances in 
relationship to gender an economic development in general.
    What I'd like to share with you is five different points. 
One is just general patterns of migration in the OSCE 
countries. Second, look at the relationship between migration 
and gender in particular relating to what determinants have 
shaped these processes; then pay attention to female migrants 
and remittances, then to female remittance recipients in some 
of these countries; and finally make some policy 
recommendations, particularly on health and education and on 
financial access on the other hand.
    On the issue of migration, what you definitely see is that 
about a quarter of the world's migrants are actually in the 
OSCE member countries. And that's basically about 50 million 
migrants are OSCE member countries. And 40 million of these are 
basically migrants in developing countries from this region, 
the OSCE region.
    Just looking at Central Asia and the South Caucasus alone, 
you have 70 million migrants, the majority of which, over 60 
percent, goes permanently to Russia. A smaller percentage goes 
to Kazakhstan. And then you have another percentage that goes 
to Western Europe. For example, with people from Moldova, 30 
percent of Moldovan migrants are going to Italy. And there are 
as many women as men migrating to Italy.
    Unlike migration to Russia, the majority of migrants going 
there are predominantly males. It's basically three-quarters of 
migrants are males. And 25 percent are women. One reason for 
that is because of the nature of the economic development 
happening in Russian at this point. There is a strong reliance 
on construction work, which is predominantly gender-based to a 
large extent where they demand more male labor than female 
labor in construction or even gas industries. But you see the 
25 percent of migrant women in Russia; these are predominantly 
working in the service industry and also in the informal 
economy. If you go to Moscow, for example, you will see many 
women in the street as street vendors, particularly people from 
Kurdistan and Tajikistan.
    Another important aspect is that another reason why there 
is more male migration to Russia, for example, from these 
countries in particular, not to Western Europe--it has to do 
with the economic conditions in these countries. These are 
highly rural societies. The higher rural composition of a 
country is, the lower the female migration will be. And this 
has to do with cultural patterns that exist in a society, but 
also to issues relating to the feminization of labor in 
agrarian societies.
    And at the same time, this relates to income. In places 
where there is lower income, you will have lower migration. The 
poor cannot migrate. And in general, we know that women are 
mostly low-wage earners than men. No matter whether they have 
the same job, they will still earn less than men. So those are 
some of the terminance that explain some of the migration 
patterns going within the OSCE to Russia in particular.
    Now, in terms of the broader patterns of remitting, for 
example, we estimate that remittances of migrants from the OSCE 
countries amounts about $55 billion. And just to Central Asia, 
especially for countries the Caucasus, Azerbaijan, Armenia, 
Kurdistan, Tajikistan and Georgia--are receiving $10 billion in 
remittances, and Moldova.
    This is not a small amount of money, especially when we're 
talking about some of the poorest countries in the world--
Tajikistan, Moldova, Kurdistan, Azerbaijan paradoxically. One 
of the richest countries in oil is also among the poorest 
countries in the world. There are also countries paradoxically 
where U.S. cooperation has a strong presence. The Millennium 
Challenge Corporation is in Armenia, in Kurdistan, in Moldova, 
among other countries in this region.
    But that $10 billion basically, 20 percent of that is 
coming from remittances transferred by female migrants. Now, 
female migrants do remit less than men. The average amount 
remitted by a migrant is about $1,500 a year. It's much less 
than, for example, what a migrant in the United States is 
remitting to Latin American or Asia. But this is relative to 
the income conditions of the migrant, but also to the cost of 
living in their home countries. Cost of living in places like 
Azerbaijan or Tajikistan is much lower than in Latin America.
    But the main reason why they remit less, it has to do 
because they earn less money. Construction work pays more, pays 
better than service work in the informal economy. There is also 
another reason, which is that some of the female migrants are 
already married in the host country, whose husbands might be 
native Russian citizens or migrants themselves. But their 
obligations are more dispersed. And they have to redistribute 
their resources. The earnings they receive are spent 
differently than the earnings men do.
    So, for example, most males in Russia, migrant males, have 
spouses back home. And they also have their children back home. 
So they have higher responsibilities in terms of the amount 
that they need to send. Whereas the woman migrant is likely to 
have their children in Russia and their spouses also in Russia.
    When we look at the people who receive remittances, we 
basically learn that 60 percent of remittance recipients are 
women. And this is a figure based on service we have done in 
these countries; but at the same time might be a contestable 
figure, that it might have to do with gender dynamics happening 
in these countries. Female remittance recipients are receiving 
less than men. They receive about 20 percent less than men do, 
even though they have to manage the same type of household size 
than men do.
    But there is another characteristic that I think is 
important to keep in mind when it comes to these issues of 
gender and migration. And it's that when men migrate, and they 
are married, and they leave their spouses behind, in many cases 
the women move into the in-laws' homes. And they lose a 
significant portion of their independence that they have as 
they were in their own households. And one of the losses of 
this independence is that they are no longer the household 
head.
    In these societies, the head of the household is generally 
accepted to be the oldest man in the house. And this can be 
probably a retired person who has no job, in fact no roles in 
managing the household. But he is perceived to be the head of 
the household. And he might be the person receiving remittances 
and may decide how much to give to the woman to administer the 
money.
    It's not a pattern, but it is something that happens on a 
regular basis among a percentage of the population that 
receives remittances and are women. That loss of independence 
is a policy issue that one needs to keep into consideration. 
But it's a difficult one to also provide a solution, because it 
might inflict on issues of privacy within the household.
    A third issue that deals with the work we have been doing 
on remittances and development focuses on the fact that the 
women remittance recipients have much less financial access 
than men do. In most of these countries, financial access is 
plainly low. Less than 20 percent of people in Central Asia or 
the Caucasus have access to a bank account.
    Remittance recipients have a slightly higher access, about 
25 percent, and that's because the money allows them to accrue 
savings and eventually mobilize them into financial 
institutions. But when it comes to women, even though they 
might be the larger remittance recipient proportion, they do 
not have as much access to banking institutions as men do.
    And that poses another problem of a policy nature in the 
issue of economic development. In Tajikistan, for example, only 
5 percent of men have bank accounts. And when it comes to 
women, it's 3 percent. In Kurdistan, it's about 20 percent for 
women and 30 percent for men. And the same goes for Armenia and 
Moldova. So there is a significant disparity about this. There 
is an unconventional ability between the percent of remittance 
recipients who are women and the percent of women who have bank 
accounts.
    So I want to now finish with some policy recommendations 
dealing with these challenges that we face. One important one 
is that, from the perspective of the Helsinki Commission, 
especially from the U.S. Congress side, I think we must 
encourage the development institutions working in those 
countries to integrate migration as part of the agenda. This is 
a very important issue, because it's largely neglected.
    And especially when we're talking about U.S. government 
cooperation, USAID, the Millennium Challenge Corporation in 
particular are two major developing institutions that play an 
important role in countries like Armenia, Moldova, Kurdistan, 
Tajikistan, et cetera. And yet, in none of these places there 
is a strategy, much less an agenda, in linking remittances and 
leveraging those flows for development, and much less on gender 
issues, even though everybody is aware that there is a dynamic 
relating to the issues, gender migration and remittance.
    And definitely, in most of these countries--for example, in 
Moldova--30 percent of the country's GDP is coming from 
remittances. Same thing goes with Armenia. There is a 
significant dependence on this, because there is less labor 
migration. So that's one issue.
    Another issue is that, from the more operational side of 
development policy, it's important that cooperation focuses on 
health and education projects for female remittance 
recipients--and not just for female remittance recipients, it's 
an issue that applies for everyone. But health and education 
issues matter for migrants.
    Migrants want to improve the health and education of their 
children. And they will be interested, for example, in 
investing in the scholarship funds and medical insurance for 
their relatives. The remittance recipient is a person over 50 
years of age in most cases. So they are facing more health 
challenges than a younger person. And yet, there is no health 
facility accessible in most of these countries that is 
affordable or efficient.
    Then there are issues on financial access. And there, I 
propose four major strategies that can be operational at the 
level of economic development policy--one dealing with getting 
greater access to remittance recipients into the banking 
system. The regulatory environment in most of these countries 
in the OSCE region do not allow anybody but banks to pay, to 
make money transfers.
    So if you go, for example, here to Western Union to remit 
money to Armenia or to Moldova, the recipient has to pick up 
the remittance and the bank. Yet, the bank does not offer any 
financial intermediation. And we have learned that the assets 
in cash that these people hold among those who receive 
remittances is about $1,000. But it's mostly kept informally. 
So access to the banking institutions is essential.
    Another important issue is to support microfinance 
institutions in rural areas, where at least half of remittances 
go. This is a different pattern that goes, for example, in 
Latin America, where only 40 percent of remittance go to rural 
areas. In OSCE countries, it's a higher percentage that goes 
there. Microfinance institutions have the ability to work 
directly with clients who are remittance recipients. Therefore 
providing them technical assistance to work on designing 
financial products to those people is essential.
    The third issue is financial education. We have learned 
that financial education does work. It increases people's 
ability to manage their money, which provides the means for 
financial independence. But also it allows them to save more 
efficiently. We developed a pilot project that is about to 
finalize in Moldova on financial education. And the results 
have been quite successful in the fact that people are opening 
bank accounts. But more importantly is that they are making the 
arithmetic of managing their finances and understanding how to 
integrate their remittance earnings with the overall earnings, 
to calculate that 70 percent of their earnings are coming from 
foreign labor from their relatives.
    And finally, another issue to operationalize at the 
development level is to promote the introduction of new 
technologies in rural areas for money transfers. And this 
specifically deals with mobile transfers. And expanding mobile 
technology into rural areas will have a definite effect in 
economic development in these countries.
    And I thank you for allowing me to speak. Thank you very 
much.
    Mr. Hastings. Thank you Dr. Orozco. I'd like to have Ms. 
Watson make any comments she may wish, and then Commissioner 
McIntyre, and then I'll go to Ms. Solis for questions.

   HON. DIANE WATSON, A MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Watson. Thank you, Mr. Chairman, for having us join 
this commission. And I want to thank the witnesses for being 
here. The question arises--and I was just reading your 
biography, Dr. Martin, is that there seems to be a separation 
or a division between women who migrate and women who are 
refugees.
    And I am concerned now about the great number of women who 
have left war zones and particularly, of course, Iraq. I 
understand there are 2.6 million people that have migrated into 
the surrounding states. There's a percentage. And reading 
through the information here--49.6 percent of those who migrate 
are women. And do you see a difference in those who become 
refugees?
    And the other issue I want to raise, and I'll just throw it 
all out there now, with Dr. Orozco is in the state of 
California, and in this country as a whole, the big issue is on 
illegal immigration. And California, many of the migrants are 
being accused--women in particular are coming across the border 
having their children, pregnant women having their children. 
And so they then become citizens of the United States.
    I wish you would comment, Dr. Martin, on the refugee issue. 
And I wish you would comment, Dr. Orozco, on what your studies 
show in terms of illegal migration and the reasons and factors 
and the consequences.
    Mr. Hastings. Why don't you go ahead, Dr. Martin, and Dr. 
Orozco.
    Ms. Martin. Yes. I'm glad that you did ask about refugee 
women, because that is another component, which I didn't 
address in my testimony. But I've written extensively on 
refugee women's issues.
    We estimate that about 75 percent to 80 percent of the 
world's refugees are women and their dependent children. And 
there's a disproportionately high share of women-headed 
households amongst those who are displaced as a result of 
conflict. There's some research now that indicates that people 
in effect go as far as their resources will take them. And a 
much larger share of those who flee conflict now are internally 
displaced. They can't get across international borders. And 
therefore they don't become officially refugees.
    And we think that both socioeconomic status but also gender 
affect that process. So women are less likely to be able to 
find a safe refuge in the context of conflict than men are. If 
you look at the proportion of asylum seekers in the U.S. and 
Europe and Australia, wealthier countries, a much higher 
proportion are men. They have the resources, both financial and 
contacts. And their families are often pushing for them to get 
as far away from the conflict then as possible. So there's a 
huge gender disparity.
    Unfortunately for most refugee and displaced women, getting 
to a refugee or a displaced persons' camp doesn't signify 
safety--that the conflict spills over into where they are. I've 
interviewed many women in Kenya, in Burundi and other--in 
Somalia, other places in Africa as well as in Latin America and 
Asia--for whom something as simple as collecting firewood or 
water is a risk to life and limb; that the rape rates amongst 
women who are going out--and over time, because there's no 
distribution of firewood in most refugee situations, they may 
have to go 20, 30 kilometers outside of the camp. That puts 
them at high level of risk.
    One of the simplest things that could happen is if donors 
provided financing for firewood distribution, fuel 
distributions in refugee contexts. It's expensive. And in most 
cases, if it's a choice between buying food or buying firewood, 
aid agencies of course buy the food. But if women are going to 
be raped or killed trying to get the firewood to cook the food, 
it's a must needed victory in terms of that aid.
    Ms. Watson. What about the children then?
    Ms. Martin. Children, 50 percent or more of the refugees 
are children under the age of 18; problems in terms of access 
to health care, access to education; big strides in trying to 
at least get to primary education. It's happened over the last 
20 years; very limited access to secondary education for any 
children, and almost no access to employment after being able 
to be educated.
    Another problem that still remains terrible for children is 
either forced recruitment into the military out of either the 
official or the insurgencies; or for young girls being 
trafficked, particularly into sexual exploitative situations. 
My first experience with that was 20 years ago on the Thai-
Cambodian border, in which every Sunday, when the aid agencies 
were out of the camp, the brothel owners were in the camp 
rounding up girls to bring to Bangkok. And this happens 
throughout the world. So major problems for children.
    Mr. Hastings. Dr. Orozco.
    Mr. Orozco. Thank you. Illegal migration is a pattern that 
happens all over the world. And we looked at, for example, 
these citizens from CIS countries going to Russia. And they 
have as much irregular presence as there is in the United 
States; same thing in Western Europe and elsewhere in the 
world. What it does reflect is rather a reality which is a lack 
of commensurability between public policy and global demand for 
foreign labor and demographic shifts in the industrialized 
economy.
    And to some extent, the inability perhaps of politicians to 
come to terms if we need to find a balance between the issues 
that come across. With regard to the question on the issues of 
women crossing borders and having babies to get their 
citizenship, I think that's predominantly an anecdotal pattern 
or explanation.
    And to tell you the truth, it's very crude and short-
sighted approach; because you can cross the border and have you 
baby. That doesn't mean that is going to make him automatically 
a U.S. citizen, or a citizen of Russia or anywhere else. And 
the cost of investing in that child to get your access to the 
benefits that the polity will provide you are not going to 
outweigh the challenges of dealing with that.
    And, you know, we've seen many women who are deported, even 
though their children are U.S. citizens. And so I think it's 
more an anecdotal situation. I think the main issue is that 
illegal migration is a reality that we're having a hard time to 
cope with. And we need to come with answers that deal with 
immigration reform issues, legalization of people, as well as 
deportation and streamlining of the process. But every single 
county in the world, not just in the United States, is dealing 
exactly with the same issue.
    Ms. Watson. May I have one more comment?
    Mr. Hastings. Sure.
    Ms. Watson. Just as a follow-up. In listening to the two of 
you, my concerns are do women and their children return home? 
What is the typical amount of time they stay as a migrant 
somewhere else? And under what conditions can they go back home 
and continue a normal life? And I'll just end by saying this is 
something that the Helsinki Commission needs to look at.
    You know, what will stabilize these women and their 
children. Most of them have children. We were in Chad--250,000 
refugees, most of them women and children with blank looks in 
their eyes. And they're trying to do some schooling. But my 
concern is once they migrate, legally or illegally or whatever 
the conditions are that force them to do that, how soon do they 
return, if they return, under what condition? And how can we 
help them?
    Ms. Martin. If I could start, I think that's a very 
variable process. I think there are a lot of people who migrate 
temporarily or keep circulated return home.
    Ms. Watson. Have you done much research that way?
    Ms. Martin. The research it's not very good on return 
patterns. For the U.S., for example, we have immigration data. 
We don't have emigration data. We don't know who leaves and how 
long it's been since they leave. One of my colleagues has been 
doing estimations for what that period of stay is.
    And it varies tremendously depending on whether--and the 
biggest factor is children, that historically it's been a 
tendency that migrants will return within five years, if 
they're going to return at all, or after retirement. But as 
soon as they have children in the school system, they're here. 
And they're likely to remain permanently or at least until 
retirement age. And that's a pattern we've seen throughout 
history.
    I want to add a thing to what Manuel said. When I directed 
the Commission on Immigration Reform, we looked very much into 
this issue of whether women were crossing to have babies for 
citizenship. And I agree very much with his assessment, because 
what we found was that women were here and therefore had 
babies, not that women were pregnant and therefore came here to 
have their babies. They came for a variety of other reasons. 
But it's been human nature, a fair number had children.
    Ms. Watson. That anecdote is used in California all the 
time. You can verify it. And it's very troubling, because I 
don't see that. And in our schools, of course, there's been a 
growth in the migrant children. But I don't see that. We hear 
it all the time. You know, that's a big issue in this country. 
It's a big issue in California. And we have not agreed on how 
to deal with it. So it's fair to all.
    But I would like, as you go back and report, that we really 
take a look on how do we return people to the most optimum--
women particularly and their children--if return is optimal. So 
anyway, that's something that we can follow up on.
    Mr. Hastings. Thank you, Ms. Watson. Ms. Solis.
    Ms. Solis. Thank you, Mr. Chairman. And I want to thank the 
members of the Women's Caucus and women who are here on the 
dais with us, members of Congress; because I think it really 
does symbolize that we do care very deeply. This is such a 
complex issue. I think we're almost talking about two different 
scenarios. One is what's happening with OSCE, European 
countries and Central Asia, Russia. And then also what our 
experience is here domestically.
    And there are a little different. And I want to touch and 
try to get your response from that. I know in the E.U. right 
now, there are some states or countries that have attempted to 
implement very specified migration. For example in Spain, they 
will allow women to come in, low-skilled women, with the idea 
that they'll go back home, because their children don't come 
with them. So they are on a restricted kind of a plan.
    And I want to know if Dr. Orozco or Dr. Martin, you could 
touch on, you know, what you've learned from that. There's also 
this notion about a blue card, which is our equivalent to the 
H-1B program, which also has other implications. And I would 
like you to touch base on that. And then also the issue of 
remittances, the fact that women--I believe I saw an article 
that staff provided to us. It indicated that overwhelmingly, 
women from Indonesia, who are migrating or come up to Europe 
have a higher proportion of sending back remittances. And what 
impact has that had there? Because sometimes we forget to look 
on the ledger what the positive consequences are of that 
sending country. And if you could just touch on those items.
    And we could start with Dr. Orozco.
    Mr. Orozco. Thank you. I think in Western Europe, there is 
a process right now of experimentation by trial and error on 
migration policy. And Spain has focused, for example, on a 
particular experience with bilateral migration relationships 
with Ecuador.
    And there, they have the belief, more than the knowledge 
and the facts, that there is going to be a process of circular 
migration that will be short term-based, where migrants will 
come to Spain, and then they will go back. And they figured 
that one way to do that is by establishing a type of 
specialized agreement.
    I think the evidence shows that the situation is more 
relative. Migrants in general, regardless of where you're from 
and where you're going, live on their, what we call, the 
illusion of impermanence. We all, once you leave your country, 
you say you're going back tomorrow. But circumstances 
definitely change those dynamics, those expectations. And as 
Susan said, you know, if you have family, you are less likely 
to return back home.
    The Western Europe countries are focusing a lot on this 
issue of circular migration. And they believe that this is, you 
know, the equivalence of a guest worker program European style; 
may have positive implications. And I think it will have 
positive effects among some, especially developing countries in 
Europe. But it will also have adverse effects on other migrants 
that are in high demand--for example, Asians and Africans--but 
are less prepared for other reasons than migration itself.
    Race is one of them. There is definitely not an open, but a 
passive preference for, Hispanic migrants, and migrants from 
Latin America than migrants from Africa. We cannot neglect 
those issues.
    When it comes to remittance and gender, there is definitely 
the case that, depending on where women enter into the labor 
force, they will be more likely to remit more or less money. 
For example, Asian women working in the hospitality industry, 
either as caretakers or in the entertainment industry, are 
going to be of a higher percentage.
    An example is the Dominican women in Switzerland. There are 
about 60,000 Dominicans in Switzerland. Three-quarters of them 
are females. And, you know, we don't like to talk about what 
they do, because you come with normative moral value judgment. 
But the fact of the matter is that they are there responding to 
a lower market of entertainment. Many Swiss tourists came to 
the Dominican Republic. They fell in love with the women. And 
then we have 60,000 women there.
    So in that case, you see higher percent of women remitting. 
But in other places--for example, we'll see it in the 
Netherlands--African women, Ghanaians, remit less than their 
male counterparts. And that's because their access to 
employment is lower. They are on welfare. The welfare state 
inhibits you from remitting, because you have lower earnings. 
So there are variations depending on where you are.
    Ms. Martin. If I could add, I'm personally very skeptical 
of large-scale temporary work programs as a solution for a 
number of reasons. When people are admitted for a temporary 
purpose into a permanent job, it usually doesn't work. The 
employer wants the person to remain, once they're trained and 
operating well. The migrant begins to develop equities, want to 
stay within the country, develop ties, things of that sort.
    I think very targeted programs, seasonal programs, can 
work, because the term of employment is short-term. The type of 
employment which has a particular cycle--you know, an 18-month 
development cycle for a product might work on that. But when 
you start to rely on temporary worker programs to deal with 
permanent shortages in your labor market, I think you're in for 
a recipe for disaster.
    To me, what has been the best thing about American 
immigration over the years is that we have tended to admit 
people for permanent residence with the idea that they're going 
to become members of our society. That expectation historically 
has been from the start. Historically, that a quarter have 
returned home. That happens. It's their choice. And sometimes 
it's because they've succeeded. Sometimes it's because they 
failed on that.
    But we organized our immigration program, or we have in the 
past, around integration of immigrants, around the expectation 
that they will stay and become Americans. I think we're moving 
off of that paradigm. I think the high level of intolerance for 
illegal migration is undermining that concept. And I think that 
too great a reliance on temporary worker programs, when people 
eventually stay in large numbers, means that you're delaying 
the process of integration. And I think for us as a country, 
there are some real dangers in doing that.
    Ms. Solis. I know we didn't touch too much on it. But I 
know in, for example, Latin America, there are groups here in 
the states that will send monies back to, say, Mexico or 
different parts of Latin America. And they set up different 
programs for health care, for acquisition of property or 
capital outlay. They purchase buildings and build hospitals and 
clinics.
    And I'd like to know what pattern there is in the OSCE 
states that participate or countries, and if you could 
elaborate on that.
    Mr. Orozco. Yes. These are basically the nations that 
migrants make when they are abroad as an organized group. We 
call them hometown associations. And they vary from different 
type of nature. They might be professional-based groups, 
construction-based associations, for example. In Kurdistan, 
there are groups of Kurds, construction workers that basically 
try to collect some money to help the local community which 
they come from.
    But the pattern is similar to Latin America. I think it's 
less as developed as it is here, partly because here they're 
seeing more of a longer process. Migration from CIS countries 
to Russia is relatively new. It's not long-standing.
    On the other hand, if you look at Armenia, for example, you 
do have a large number of associations in Los Angeles, for 
example. There's a large Armenian community that is organized, 
not as much as we think it is. But they are raising funds. 
Predominantly they work on church-related activities, not on 
other type of development-related philanthropy.
    So they exist, and they can be a source of leveraging for 
cooperation. But I think the most important one is the family-
to-family money transfers. That's where the billions of dollars 
go to.
    Ms. Martin. Could I add one thing on that? One of the areas 
where I think the E.U. is a bit ahead of us, in thinking about 
this connection between migration and development, are policies 
that they refer to as co-development, where their development 
agencies work with migrant associations and in trying to do 
what Manuel was talking about in his testimony--of trying to 
integrate migration more into development and planning.
    They don't do it very well yet. I'm not saying that it's 
necessarily a perfect system. But I would certainly like to see 
some type of migration impact statement in all development 
planning and programming, so that we look at both sides of the 
development-migration connection. Is the development program 
dealing with the migration pressures? And is the migration of 
people being taken into account in how our development programs 
are being implemented. And their hometown associations, I 
think, do play a role.
    Ms. Moore. Well, thank you so much, Mr. President.
    This has been a very fascinating discussion. And my brain 
has been sort of buzzing, because I can't decide whether 
migration is a good thing or a bad thing. I mean, it seems to 
be the perils in migration for children. Some of the materials 
and testimony we've had sort of indicate that when children 
migrate with women, there are problems with educational 
opportunity often. Street children--we didn't talk about that 
specifically. But at the same time, there are remittances that 
places like Moldova are very, very dependent upon.
    I have a lot of questions. But I don't want to hog all the 
time. But I'm going to start with Dr. Orozco.
    Dr. Orozco, you've done a lot of work in your studies on 
remittances. And so I wanted to know, particularly since 
women--the migration patterns for women, tend to be East Asia, 
the Pacific, Europe, and Central Asia and Latin America, 
perhaps there are a lot of Muslim women who are migrating. I'm 
wondering how have our post-9/11 anti-money-laundering 
restrictions--what impact that's had on migrants to remit 
money.
    Mr. Orozco. Thank you. You know, we work on migration all 
the time. And we struggle with the issue--the normative aspect 
of whether migration is good and bad. And we are right at the 
conclusion that we must look at it from a policy perspective, 
and a normative perspective. And my analogy is to ask the 
question whether commuting is good or bad for families and 
societies. And commuting is a form of migration. You have this 
mobilization of people through outside of urban areas, for 
example.
    But on the issue of 9/11, I think it has posed a number of 
challenges, especially for money transfer companies; because 
the regulatory environment has been more strict on 
international foreign currency payments, in a way that the 
banking institutions, that's all the accounts for money 
transfers to operate on the back-end process have received 
sometimes not mixed signals, but strong signals from the U.S. 
government saying that money transfers are to be considered 
high-risk.
    And then if you look at the place where the high risk is 
located, it's in places, in countries, where there is an 
ideological U.S. foreign policy component. So you are likely 
to, for example, scrutinize more the behavior of the Pakistani 
and Afghani person permitting than a Somali. I mean, the 
Somalian case that is a sad case of so much discrimination to a 
large extent of Somalians in the U.S. trying to remit formally 
through Western Union, for example, is not allowed.
    Ms. Moore. What about in the OSCE area?
    Mr. Orozco. The OSCE area, the patterning of the risk layer 
is not as high as it is here. On the other hand, even though 
I'm critical of the U.S. government issuing risk, I think in 
this country, anti-money-laundering regulatory environments are 
very primitive, very poor. And compliance doesn't exist.
    For example, many of these countries don't even have laws 
for anti-money laundering. If you talk to the banks paying 
remittances, they have no idea how to identify what constitutes 
a suspicious activity. They tell you well, it is under $3,000. 
We flag the transaction. But you can buy an AK-47 for $50.
    Ms. Moore. Yes.
    Mr. Orozco. So it's an issue that you have to look at 
outside of whether it is Muslim or not descended, because that 
actually can bias your perspective. That can be Manuel Orozco 
sending remittances from Moscow. I mean, I can be doing some 
criminal activity and not flag. So that issue is important to 
look into. It pertains to gender. The reality is that, if there 
are restrictions, women will be as likely as men to resort to 
informal networks. And informal networks are strong in all of 
these regions, partly because the infrastructure is poor, 
because also the regulatory environment only allows banks to 
pay remittances.
    And for a country like Azerbaijan--60 percent of the 
country is poor and rural. And you only have banks that do not 
go to rural areas. Same thing with Moldova: a very good banking 
system, but the savings and investing associations that operate 
in Moldova in rural areas do not have the possibility to pay 
from it. So that encourages informality. And that's an issue 
that we need to pay attention.
    Ms. Moore. Just to follow up with one more question, Mr. 
Chairman.
    I'm looking at a data from the World Bank research 
programs. And I just am amazed by their research about the 
migration flows, Dr. Martin and Dr. Orozco. It says the gender 
composition of migration flows to the main destination 
countries in the north. And they differ by region. Flows from 
Africa, South Asia and the Middle East tend to be male, while 
flows from East Asia and the Pacific, Europe, Central Asia and 
Latin America and the Caribbean tend to be female.
    Do we know why that is? And where are they going? It didn't 
really say where they were going. But do we know why that is?
    Ms. Martin. Usually migration occurs through family and 
labor recruiter networks. And employment is gendered. So if you 
have organizations that are recruiting workers for construction 
and bringing them to Germany, when Berlin was being 
reconstructed, they're going to be male. And likely, they're 
going to be looking for where those migration patterns are.
    On the other hand, if you're looking for domestic workers 
or looking for nurses, you're going to go to the Philippines. 
And it's going to be female. So in the Philippines, 70 percent 
of those who migrate from the Philippines are female.
    Much of the migration now, unfortunately, is illegal. And 
so it's more likely to be men who will initially take that risk 
in terms of migration. Even across the border with Mexico, if 
you look at apprehension figures, those who cross between ports 
of entry, through the desert or the mountains, are 
overwhelmingly male. Those who try to use fraudulent documents 
coming through ports of entry are predominantly female.
    So you do get variations even from the same country in 
terms of what type of work they're coming for; but also what 
the possible modes of migration are.
    Ms. Moore. Just in terms of the United States, there seems 
to be some suggestion that male migrants to the United States 
are more successful in labor force participation and 
integration than females are; and that there are more 
catastrophic problems for women who come to the United States.
    Ms. Martin. I would certainly not characterize it in that 
way. I think because a lot of our migration is initially still 
male migration coming in because there are needs in the job 
market, the men may tend to have higher employment rates and 
higher labor participation rates. They're actually higher in 
many cases than natives are.
    The women are still more likely to be following to join 
often coming from countries where there isn't a high level of 
female labor force participation. And so their labor force 
rates are going to be lower. Actually once in the labor force, 
very often their employment rates are higher than men, because 
they're able to get jobs. But the chances are they're not going 
to look for them unless it's absolutely essential in terms of 
the family household strategy. So I don't think that female 
migration poses an economic harm to the United States.
    Mr. Hastings. Thank you, all. Dr. Martin and Dr. Orozco, 
thank you very much for your emphasizing the particularly 
complex issue in the OSCE's sphere as well as more directly 
related to our country. Regrettably, this institution deals 
with the societal emotions. And the manifestation of that comes 
out in a way that I think causes us not to be able to do the 
things that are vital in policy that we should be doing. And I 
appreciate very much that both of you have given us some policy 
direction that is valuable.
    I don't have a question. But I would only add one or two 
anecdotes. And then I'll say to you, Dr. Orozco that I listened 
very carefully, as I did to Dr. Martin and my colleagues. And I 
find it interesting that you got through this whole one hour 
and a half without saying Kosovo or Bosnia.
    And when you speak in terms of Central Asia, you did point 
to, and it's correct, where we have some direct policy 
relationships and/or diplomatic relationships, we tend to 
highlight and gather data and publicize that data. But there 
are two countries in Central Asia that have the exact same 
migration issues that their neighbors do--Uzbekistan and 
Turkmenistan. And they are all, in many respects interrelated, 
because the transient points, the transmigration, all of those 
things happen.
    One other thing that I regret, but I believe both of you 
would know. And that is that our colleague, Chris Smith, the 
ranking member of the commission, couldn't be with us. Like Ms. 
Solis, I'm really proud of the fact that, in the parliamentary 
assembly, she is my special representative on migration. And 
Congressman Smith is the special representative on human 
trafficking and has spent a substantial amount of his time and 
career in dealing with that subject and does have a wealth of 
information. And I just would point to that.
    Another thing is both of you got through this without 
saying Canada. And here again, you know, when we focus about 
migration and immigration into the United States part of the 
OSCE sphere, we tend to leave our northern neighbors off to the 
side, who have an immensely complex immigration and migration 
and border security issues of similar import to our own.
    Many of the remedies that you offer should, and rightly 
are, based in world organizations--the WTO, the World Bank, the 
United Nations and all of those areas. Unfortunately, what 
doesn't happen in something this complex is it cannot be 
reduced to a bumper sticker. And it's hard to put it in one or 
two pages. And once you get the kind of data that you all have 
collected in your careers, regrettably, even when it is sent to 
our offices, even when we have immense staff and diverse staff 
and staff who are directly interested, it becomes absolutely 
too much information for us to digest and to come forward with 
meaningful policy.
    If we do not, the level of intolerance that is developing 
in the OSCE sphere and in the United States of America 
specifically is going to have a devastating impact on us.
    One anecdote that substantiates what you said, Dr. Martin, 
about temporary employment circumstance: We find businesses, 
multi-national corporations, U.S. corporations, specifically 
interested in H1-B visas and bringing in highly skilled and 
technical work. An example took place in the congressional 
district that I serve. The Florida Atlantic University in Boca 
Raton participated in bringing 19 math teachers from the Asian 
continent to St. Lucie and Martin Counties to teach an 
underserved area. One of the things that needs to happen is we 
need to get on the same page in many of these instances but 
certainly the coordination of federal agencies.
    On a given day, the homeland security people just decided 
they were going to pick up all 19 of those people. And it was 
in the middle of the school year. As a matter of fact, it was 
two months ago. They were going to pick them up and send them 
home. I read about it in the newspaper. And so I got my office 
involved and the people at Florida Atlantic University. And of 
course, over time, the exception was made.
    But just think about the impact of that. Here we have the 
19 math teachers. Obviously, we don't have enough math 
teachers. I might add every last one of them was extremely 
popular with the students and doing extraordinary work and what 
have you. All of them had been vetted--no relationship to 
terrorism or anything like that. And yet, they were talking 
about sending them home.
    So we need to be very careful. And you all have so much 
information. I hope my colleagues way beyond the commission, 
but in the other committee will spend that kind of time. And 
I'm especially indebted to Ms. Solis for her extra effort. And 
even though we didn't have a large attendance, we did have a 
large attendance of members. And it manifests their interest. 
And that's largely attributable to the extraordinary work she 
did in recruiting them to come here for this important hearing.
    One other thing that I've complained about, the commission 
itself is not a congressional committee. So matters like the 
Congress Daily and the Congressional Quarterly and The Hill and 
Roll Call, they will report the hearings that we have that are 
important like this.
    But I happened to note yesterday, of all the things I read, 
I turned to the Congressional Quarterly. And I was interested. 
And Fred and others on the staff will know that I reached out 
to the editors and told them we have some pretty significant 
hearings over here. And a lot of folks would like to know what 
we are doing.
    But I picked up the Congressional Quarterly and, without 
going through the front of it, I just turned. I said I'll bet 
you it's in here, but it's in the back. It's the back page. OK? 
So that's how important some others attach not only to this 
hearing, but others that we have had as well.
    What you've had to say here today in this limited period of 
time is something that would be very beneficial if the 435 
policy makers and the five delegates that I work with and 
certainly everybody in the United States Senate--if they were 
to hear it and understand how you approach it with the calm, 
professional, empirical backup of the things you're saying, 
then we'd get rid of some of the myth, we get rid of some of 
the anecdotal information that is exclusive only to that 
individual and not to the masses, we'd get rid of some of the 
stereotypes. And guess what? We might fool around and get 
ourselves some kind of comprehensive immigration policy. Thank 
you, all, so very much.
    Ms. Martin. Thank you.
    Mr. Orozco. Thank you.

                            

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
